   November 7, 2002




Acquisition
DoD Contractor Subcontracting With
Historically Underutilized Business
Zones (HUBZones) Small Businesses
(D-2003-019)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DCMA                  Defense Contract Management Agency
FAR                   Federal Acquisition Regulation
SBA                   Small Business Administration
         Office of the Inspector General of the Department of Defense
Report No. D-2003-019                                                 November 7, 2002
  (Project No. D2001CK-0193)

                  DoD Contractor Subcontracting With
          Historically Underutilized Business Zones (HUBZones)
                            Small Businesses

                                Executive Summary

Who Should Read This Report and Why? DoD small business specialists, contracting
officers, and Defense prime contractors should read this report. The report discusses the
necessity for accurate reporting of Historically Underutilized Business Zone (HUBZone)
small business subcontracting awards.

Background. Senator Christopher S. Bond requested a review to answer specific
questions pertaining to subcontracting plans, monitoring compliance with subcontracting
plans, and goals within the small business program, particularly the HUBZone program.
The request was in response to a concern that Defense prime contractors were apparently
neglecting the HUBZone small business program. The audit examined subcontracting
efforts by 16 Defense prime contractors with HUBZone small businesses, on DoD
contracts awarded in FYs 2000 and 2001.

Results. Of the 16 Defense prime contractors reviewed, 5 incorrectly reported HUBZone
small business subcontracting awards and the DoD buying offices did not always adhere
to best management practices in the submission, approval, and administration of the
subcontracting plans, goals, and waivers. However, the contractors generally
implemented the HUBZone small business program into their subcontracting efforts, and
provided limited subcontracting opportunities to HUBZone small business concerns.
Defense Contract Management Agency San Francisco was not sufficiently monitoring the
contractors’ reporting of the HUBZone small business subcontracting awards.

Five of the 16 contractors reviewed overstated their FY 2001 HUBZone small business
subcontracting awards by about $1.34 million. The 16 prime contractors should have
reported $397,000 in FY 2001 HUBZone small business subcontracting awards, but due
to the overstatement, they reported about $1.74 million. Current and future summary
subcontract reports should provide accurate data on HUBZone small business
subcontracting awards. The Defense Contract Management Agency should implement a
plan for reviewing and verifying prime contractors’ reported HUBZone subcontracting
awards, and inform contractors of the need to obtain and verify representation of a
contractor’s HUBZone status through the Small Business Administration. (See the
Finding section of the report for the detailed recommendations.) See Appendix C for a
discussion of specific questions raised by Senator Bond regarding small business
subcontracting, particularly to HUBZone small business concerns. See Appendix D for a
discussion of the management practices in the submission, approval, and administration
of the subcontracting plans, goals, and waivers.
Management Comments. The Defense Contract Management Agency concurred with
the finding and recommendations; therefore, no additional comments are required.
Although not required to comment, the DoD Office of Small and Disadvantaged Business
Utilization concurred in principle with our recommendations; however, it noted that the
issues raised require a department-wide response. The DoD Office of Small and
Disadvantaged Business Utilization plans to initiate a Federal Acquisition Regulation
case to request revisions of the instructions for completing the “Subcontracting Report
for Individual Contracts,” Standard Form 294 and the “Summary Subcontract Report,”
Standard Form 295. Additionally, the case will request a Federal Acquisition Regulation
revision requiring prime contractors to verify the HUBZone status of small businesses.
See the Finding section of the report for details of the management comments and the
Management Comments section for the complete text of the comments.




                                          ii
Table of Contents

Executive Summary                                                  i

Background                                                         1

Objectives                                                         3

Finding
     Reporting of HUBZone Small Business Subcontracting Awards     4

Appendixes
     A. Scope and Methodology                                     11
          Prior Coverage                                          13
     B. Subcontracting Reports                                    14
     C. Summary of Issues and Results                             20
     D. Subcontracting Issues                                     25
     E. Report Distribution                                       30

Management Comments
     DoD Office of Small and Disadvantaged Business Utilization   33
     Defense Contract Management Agency                           34
Background
    The Historically Underutilized Business Zone (HUBZone) Program. Public
    Law 105-135, “Small Business Reauthorization Act of 1997,” title VI,
    “HUBZone,” (the HUBZone Act of 1997) enacted on December 2, 1997, created
    the HUBZone Empowerment Contracting Program. The HUBZone program
    allows contractors to stimulate economic development in defined distressed areas.
    The HUBZone Act of 1997 specifies that the Small Business Administration
    (SBA) establish certification procedures for the HUBZone program. It also
    establishes the requirements a contractor must meet for the SBA to certify the
    contractor as a HUBZone small business concern. A contractor must meet all of
    the following requirements to be certified as a HUBZone small business concern:

           •   be owned and controlled by one or more U.S. citizens and the
               principal office is located in a HUBZone;

           •   have at least 35 percent of its employees reside in a HUBZone; and

           •   be located in a HUBZone defined area: a qualified census tract; a
               qualified “non-metropolitan county” with a median household income
               of less than 80 percent of the state median household income or with
               an unemployment rate of not less than 140 percent of the statewide
               average; or lands within the boundaries of federally recognized
               Indian reservations.

    Small Business Administration. The SBA is responsible for regulating and
    implementing the HUBZone program. The SBA must certify a HUBZone small
    business concern in order for this business to receive Federal contracting
    assistance under the program. In doing so, SBA determines which businesses are
    eligible to receive HUBZone contracts, maintains a listing of qualified HUBZone
    small businesses that Federal agencies can use to locate venders, and adjudicates
    protests of eligibility to receive HUBZone contracts. The SBA is authorized to
    evaluate contractor compliance with subcontracting plans either on a contract-by-
    contract basis or, for contractors having multiple contracts, on an aggregate basis.

    Since the beginning of FY 2000, the number of SBA-certified HUBZone small
    business concerns has steadily increased. The General Accounting Office
    reported that at the beginning of FY 2000, SBA had certified 290 contractors as
    HUBZone small business concerns. On December 7, 2001, SBA reported a total
    of 4,744 contractors certified as HUBZone small business concerns.

    PRO-Net. The HUBZone Act of 1997 requires the SBA to maintain a list of
    qualified HUBZone small business concerns. The list should include the name,
    address, and type of business of each small business concern; be updated
    annually; and be provided upon request to any Federal agency or other entity.
    The SBA Procurement Marketing and Access Network (commonly referred to as
    PRO-Net), the Internet-based database of procurement information, is a search
    engine for contracting officers and contractors to find small businesses, which
    includes HUBZone certified businesses and is a marketing tool for small firms.


                                         1
Individuals can search PRO-Net using standard industrial classification codes,
key words, location, quality certifications, business types, ownership, race, and
gender. In addition, PRO-Net can be searched by small businesses seeking
Federal contracts. SBA also maintains another listing, “List of Qualified
HUBZone Small Business Concerns,” which identifies SBA-certified
HUBZone vendors.

Goals. The HUBZone Act of 1997 established a graduated prime-contracting
goal for HUBZones (1.5 percent in FY 2000, 2 percent in FY 2001, 2.5 percent in
FY 2002, and 3 percent in FY 2003 and thereafter), but the Act does not mandate
a Government-wide subcontracting goal.

Subcontracting With HUBZones. The Federal Acquisition Regulation
(FAR) 19.702, “Statutory Requirements,” requires contractors to submit an
acceptable subcontracting plan, which includes separate subcontracting goals for
prime contracts that exceed $500,000 ($1,000,000 for construction). The
contractor must agree that small businesses, including HUBZone small
businesses, will have maximum practicable opportunity to participate in contract
performance consistent with efficient performance. Additionally, the FAR
requires that the subcontracting plan include separate percentage goals and a
statement of the total dollars planned to be subcontracted to small businesses and
various small business socioeconomic concerns.

Reporting on Subcontracting Accomplishments. DoD prime contractors are
required to report subcontracting awards on the “Subcontracting Report for
Individual Contracts,” Standard Form 294 (SF 294) and “Summary Subcontract
Report,” Standard Form 295 (SF 295). The prime contractors are to submit a
SF 294 for each DoD contract exceeding $500,000. SF 294s report the
contractor’s progress in meeting the subcontracting goals submitted for each
individual contract. Contractors are to submit a SF 295 detailing subcontracting
activity for all of their DoD contracts when they have a contract with DoD that
exceeds the $500,000 threshold. See Appendix B for further discussion of the
SF 294 and SF 295.

The information provided on the SF 295 feeds into the P-14 report, “Companies
Participating in the Department of Defense Subcontracting Program.” The
Washington Headquarters Services, Directorate for Information Operations and
Reports, issues the P-14 report annually. This report provides summary data on
DoD subcontracting program commitments to small business and various small
business socioeconomic concerns, including HUBZone businesses.

Defense Contract Management Agency. The Defense Contract Management
Agency (DCMA)1 and the SBA have agreed that DCMA will conduct compliance
reviews of DoD prime contractors over which DCMA has cognizant contract
administrative authority. The DCMA small business office provides guidance to
1
    The original memorandum of understanding in 1996 was between the SBA and the Defense
    Logistics Agency. When the Defense Contract Management Command was transitioned from
    the Defense Logistics Agency to establish DCMA in March 2000, DCMA continued to conduct
    the compliance reviews for those DoD contractors for which they have cognizant contract
    administrative authority.



                                          2
    DoD contractors for implementing and managing their small business programs,
    including the HUBZone program. DCMA educates DoD prime contractors to
    ensure that they are providing small businesses maximum opportunities to
    compete for subcontracting dollars and reviews contractors’ small business
    programs and summary subcontracting reports.


Objectives
    The audit objective was to determine whether DoD contractors provided
    subcontracting opportunities to small business concerns located in HUBZones.
    The audit also determined whether DoD adequately monitored Defense
    contractors’ subcontracting efforts to HUBZone contractors. The congressional
    request asked specific questions pertaining to HUBZones. We limited our review
    to the 162 Defense prime contractors identified in the request. See the Finding
    section for details on reporting of non-SBA-certified HUBZone small business
    concerns. See Appendix A for a discussion of the audit scope, methodology, and
    prior coverage and Appendix B for a further discussion of subcontracting reports.
    See Appendix C for a summary of issues and results pertaining to Senator Bond’s
    request. See Appendix D for details on management practices regarding the
    submission, approval, and administration of the subcontracting plans, goals,
    and waivers.




    2
        The scope of the audit was limited to HUBZone subcontracting implementation and awards for
        the specific division and location for each of the 16 Defense prime contractors identified in the
        request from Senator Bond.




                                                   3
           Reporting of HUBZone Small Business
           Subcontracting Awards
           Five of the 16 DoD prime contractors reviewed incorrectly reported their
           FY 2001 HUBZone small business subcontracting awards by about
           $1.34 million in their summary subcontracting reports to DoD.

               •   Subcontractors incorrectly represented themselves as SBA-
                   certified HUBZone small business concerns.

               •   The contractors did not follow DCMA San Francisco guidance
                   concerning the verification of their HUBZone subcontracting
                   awards through SBA prior to reporting them on their summary
                   subcontracting reports.

               •   DCMA San Francisco did not adequately review the contractors’
                   subcontracting programs to ensure that they were reporting only
                   SBA-certified HUBZone contractors.

           As a result, the contractors overstated their HUBZone small business
           subcontracting awards by about $1.34 million (77 percent) of a total of
           about $1.74 million for the 16 contractors, which was incorporated into
           and overstated the HUBZone subcontracting awards in the FY 2001 DoD
           P-14 report.


FY 2001 HUBZone Subcontracting Awards
    Eight of the 16 DoD prime contractors reviewed reported FY 2001 HUBZone
    subcontracting awards totaling about $1.74 million. The other eight contractors
    did not report any FY 2001 HUBZone subcontracting awards. However, five of
    the eight contractors that reported HUBZone dollars reported a total of about
    $1.66 million in HUBZone subcontracting awards, but actually awarded only
    $316,000 to SBA-certified HUBZone firms.


HUBZone Reporting
    Contractors incorrectly reported their HUBZone subcontracting awards because
    subcontractors incorrectly represented themselves and the prime contractors did
    not follow DCMA San Francisco guidance regarding the verification of the
    subcontractor’s HUBZone status through SBA prior to reporting them.
    Additionally, DCMA San Francisco was not sufficiently monitoring the prime
    contractors’ subcontracting program regarding the reporting of the HUBZone
    subcontracting awards.




                                        4
Subcontractor’s Self-Certifications. Six subcontractors’ self-certifications were
inaccurate regarding their HUBZone small business status. For example, three
prime contractors used certification letters, which required their subcontractors to
indicate their small business status. Each of these prime contractors had
subcontractors who identified themselves as being HUBZone contractors or
HUBZone certified when SBA had not certified them as a HUBZone small
business concern.

The HUBZone program is fairly new. It was enacted into law in 1997 and
regulatory guidance in the FAR was not implemented until January 1999. We
believe as the program continues to mature and subcontractors become more
acquainted with the requirements of the program, subcontractors’ reporting to
prime contractors regarding their HUBZone status will improve. We did note that
as of July 2002, SBA, which has 30 days to process a HUBZone application, was
about 1.5 months behind in reviewing applications. As of July 16, 2002, SBA
was only reviewing applications that it had received in early May and it was not
presently practicable, for them with a very limited staff, to meet the 30-day
process time.

Guidance. The FAR and the instructions for preparing the SF 294 and the
SF 295 do not instruct a contractor to report only SBA-certified HUBZone
contractors. However, DCMA San Francisco implemented local guidance in
addition to the SF 294s and SF 295s instructions in September 2001 requiring
prime contractors to verify HUBZone subcontracting awards through the SBA.

        FAR Guidance. The FAR addresses what is considered to be an
appropriate HUBZone concern; however, it does not require that a contractor
verify a subcontractor’s status through the SBA prior to reporting a contractor as
a HUBZone small business concern. FAR 19.703, “Eligibility Requirements for
Participating in the Program,” establishes that a concern must represent itself as a
HUBZone small business and refers to FAR 2.101, “Definitions,” which defines a
HUBZone small business concern as a contractor that appears on the List of
Qualified HUBZone Small Business Concerns maintained by the SBA.

The FAR further states that a contractor acting in good faith may rely on the
written representation of its subcontractor regarding the subcontractor’s status as
a small business, veteran-owned small business, service-disabled veteran-owned
small business, HUBZone small business, or a woman-owned small business
concern. If a contract contains positive small disadvantaged business goals,
prime contractors must obtain representations of small disadvantaged status from
subcontractors that they have been certified as small disadvantaged businesses by
SBA. Further, the contractor must confirm that a subcontractor representing itself
as a small disadvantaged business concern is identified by SBA as a small
disadvantaged business concern by assessing the SBA PRO-Net or by contacting
SBA. However, it does not discuss verifying a subcontractor’s HUBZone status
in this same manner. It only states that interested parties may challenge a
HUBZone small business status.




                                     5
        SF 294 and SF 295 Instructions. The instructions provided with the
SF 295 and SF 294 indicate that the contractor should report all subcontracts
awarded to HUBZone small businesses; however, it does not indicate that these
subcontractors should have a SBA HUBZone certification. See Appendix B,
figures B-2, B-3, and B-5 for the SF 294 and SF 295 general instructions.

DCMA San Francisco Instructions. DCMA San Francisco developed its own
specific written instructions on preparing the SF 295 and SF 294. Its written
instructions on completing the SF 295 from May 2001 did not discuss verifying a
subcontractor’s HUBZone status through the SBA prior to reporting them as
HUBZone subcontracting awards. However, the September 2001 guidance did
discuss verifying a subcontractor’s HUBZone certification status through the
SBA. DCMA San Francisco has provided training regarding the preparation of
the SF 294s and SF 295s, but it indicated that not all contractors receiving
contracts that it administers have attended.

Prime Contractor’s Verification. Prime contractors reported their subcontract
awards to several subcontractors as HUBZone awards without verifying their
status through the SBA. We verified the subcontractors through PRO-Net or the
SBA List of Qualified HUBZone Small Business Concerns and identified that
they were not SBA-certified HUBZone contractors. The prime contractors agreed
that the subcontractors were not SBA-certified HUBZone contractors and
incorrectly reported the subcontractors as HUBZone small business concerns.

DCMA San Francisco Reviews. DCMA San Francisco performs subcontracting
reviews for about 55 contractors. One DCMA individual conducted these reviews
from August 2000 until July 2001, and since July 2001 two individuals have
conducted the subcontracting program reviews. The DCMA reviews performed
on 3 of the 16 contractors did not identify the contractors’ incorrect HUBZone
reporting. However, a subcontracting review that we attended in October 2001
identified that the contractor had incorrectly reported its FY 2001 HUBZone
subcontracting awards. DCMA required the contractor to resubmit its SF 295
with the correct HUBZone subcontracting award data.

        General Dynamics Corporation, Electronic Systems. General
Dynamics reported non-SBA-certified HUBZone small business concerns in both
of its FY 2001 SF 295s, ending March 31, 2001, and September 30, 2001. During
the July 2001 review, DCMA San Francisco did not note any deficiencies
associated with the reporting of HUBZone subcontractors that General
Dynamics used.

        Aerojet, Sacramento Operations. On October 22, 2001, Aerojet
reported in its FY 2001 SF 295 a total of $192,000 in HUBZone subcontracting
awards to three contractors; however, two contractors were not HUBZone
certified. On November 14, 2001, DCMA San Francisco performed a
subcontracting program review of Aerojet, and did not identify this improper
reporting of the HUBZone subcontracting awards. DCMA San Francisco, based
on this program review, rated Aerojet’s subcontracting program at the highest
level “outstanding” and did not note in its report that Aerojet had incorrectly
reported its HUBZone subcontracting achievements.



                                    6
           SRI International. SRI International reported nonexistent HUBZone
    subcontracting awards totaling about $16,000 in its first half FY 2001 SF 295.
    On September 12, 2001, DCMA reviewed SRI International’s subcontracting
    program and did not identify during the review that SRI International had
    reported HUBZone subcontracts that did not exist. SRI International reported
    about $28,000 in HUBZone awards in its FY 2001 SF 295 that were nonexistent.

            Litton Systems Inc./Electron Devices Division. In the October 31, 2001,
    annual review at Litton, DCMA San Francisco personnel verbally instructed
    Litton personnel that they could only report certified HUBZone concerns in its
    summary subcontract reports. The contractor was unaware of this and informed
    DCMA that it would review its vendor list and remove the non-SBA-certified
    subcontractors from the reported amount. After completing this review, the
    contractor submitted a revised SF 295 in January 2002, indicating HUBZone
    subcontract awards of about $15,000; it had originally reported HUBZone
    subcontracting awards of about $1 million.

    Improvement to Review Process. DCMA San Francisco needs to review the
    process that it is using to perform the contractors’ subcontracting reviews.
    Because the HUBZone program is fairly new and the reporting requirements are
    not clear, we believe that DCMA needs to more closely monitor the prime
    contractors and subcontractors. Specifically, DCMA personnel need to verify that
    HUBZone subcontractors are SBA-certified and that prime contractors actually
    awarded subcontracts.


P-14 Report
    As a result of reporting non-SBA-certified HUBZone subcontractors or non-
    existent subcontracts, five contractors overstated their HUBZone small business
    subcontract awards in the P-14 report by about $1.34 million. The FY 2001 P-14
    report identified, for the 153 contractors, about $1.96 million in HUBZone small
    business subcontracting awards. The contractors’ FY 2001 SF 295s indicated
    about $1.74 million in HUBZone subcontracting awards, a difference of $218,000.

    FY 2001 SBA-Certified HUBZone Subcontracting Awards. For FY 2001, the
    16 contractors’ actual amount of HUBZone small business subcontracting awards
    should be $397,000, a difference of about $1.34 million from their SF 295s. See
    the following table for a detailed listing. The table lists 8 of the 16 contractors
    reviewed; the other 8 contractors reported zero dollars in HUBZone
    subcontracting awards for FY 2001.




    3
        Pulse Sciences Inc., actual FY 2001 subcontracting amounts were included in the Titan
        Corporation’s P-14 amounts. Therefore, we could not determine if the P-14 report identified any
        HUBZone subcontracting awards for Pulse Science. However, Pulse Sciences reported zero
        HUBZone subcontracting awards on their FY 2001 SF 295.



                                                 7
  FY 2001 Reported and Actual Subcontracting Awards to SBA-Certified
                           HUBZone Subcontractors
                                 (in thousands)
                                                          P-14   Actual
                                                SF 295   Report HUBZone
 Contractor                                   Amount Amount Amount
 Aerojet, Sacramento, CA                         $ 192    $ 192     $ 12
 General Dynamics Corporation, Electron
 Devices Division, Mountain View, CA                168      168      132
 Kaiser Electronics, San Jose, CA                    77       77       77
 Litton Systems Inc./Electronic Devices
 Divisions, San Carlos, CA                        1,047    1,047       15
 Maxwell Physics International,
 San Leandro, CA                                       1       1       2*
 Northrop Grumman Corporation, Marine
 Systems Division, Sunnyvale, CA                    223      223      157
 SRI, International, Menlo Park, CA                  28      246        0
 Teledyne, Electronic Technologies,
 Rancho Cordova, CA                                    2       2        2
 Total                                           $1,738   $1,956     $397
 *
  Maxwell Physics International determined that it had not reported all of its actual HUBZone
 subcontracting awards on its FY 2001 SF 295; thus, the amount increased.


P-14 Error. A likely input error from the SF 295s to the P-14 database resulted
in a $218,000 difference between the P-14 report and the SF 295s. One
contractor had reported on its SF 295:

        •   $0 in Historically Black Colleges and Universities/Minority
            Institutions awards,

        •   $28,000 in HUBZone awards, and
        •   $246,000 in Veteran-Owned Small Business awards.

However, the P-14 report indicated:

        •   $28,000 for Historically Black Colleges and Universities/Minority
            Institutions awards,

        •   $246,000 for HUBZones awards, and

        •   $0 for Veteran-Owned Small Business awards.

This misclassification of the actual reported awards resulted in the $218,000
difference between the P-14 report and the SF 295s. Therefore, with the
contractors reporting non-SBA-certified HUBZone contractors and the input error
of $218,000, the P-14 report was overstated by $1.56 million.



                                           8
    General Accounting Office. The General Accounting Office in Report
    No. GAO-02-57, “HUBZone Program Suffers From Reporting and
    Implementation Difficulties,” October 26, 2001, reported that Federal agencies
    experienced similar difficulties in correctly reporting their HUBZone program
    achievements. The General Accounting Office noted that Federal agencies’ data
    included contracts awarded to firms that SBA had not certified as qualified to
    participate in the program and did not include contracts awarded to firms that
    SBA may have certified as qualified HUBZone firms.

    In response to the General Accounting Office report, the Office of Federal
    Procurement Policy issued guidance on June 24, 2002, to aid Federal agencies in
    identifying which contract actions to report to the Federal Procurement Data
    System that meet HUBZone criteria. The policy stated that the SBA position is
    Federal agencies that award a contract to a non-SBA-certified HUBZone concern
    should not count it as a HUBZone achievement, regardless of whether the firm
    became certified during the term of the contract. The policy does not address how
    prime contractors should report subcontracts awarded to non-SBA-certified
    contractors who later become SBA-certified during the term of the contract. The
    guidance does reiterate that it is important for contracting officers and prime
    contractors to refer to SBA PRO-Net to verify that the contractor or subcontractor
    is on the list of certified HUBZone small business concerns.


Conclusion
    Contractors overstated their HUBZone accomplishments in the FY 2001 P-14
    report by about $1.34 million (77 percent) because subcontractors misrepresented
    their HUBZone status and several contractors had not verified their
    subcontractors’ HUBZone certifications through the SBA prior to reporting their
    subcontracting awards to DoD. Additionally, DCMA San Francisco
    subcontracting program reviews were insufficient because they did not identify
    contractors’ incorrect reporting of their HUBZone subcontracting awards. The
    FAR and SF 294 and SF 295 instructions are not clear on whether contractors
    should report only SBA-certified HUBZone subcontractors. DCMA San
    Francisco updated its instructions regarding the reporting of SBA-certified
    HUBZone contractors and verbally informed the contractors. However, DCMA
    San Francisco reviews of the contractors’ subcontracting programs did not always
    detect contractors’ inaccurate reporting. The contractors’ reporting should
    improve with DCMA continuing to reinforce the HUBZone subcontracting
    reporting requirements through guidance and annual contractor reviews.
    Additionally, the reporting should improve as the HUBZone program continues to
    grow and subcontractors and prime contractors become better acquainted with the
    requirements of the program.




                                        9
Recommendations and Management Comments
    We recommend that the Director, Defense Contract Management Agency
    direct the Assistant Director of Small Business at the Contract Management
    Offices to:

           1. Issue memoranda to the contractors that when preparing the
    Standard Form 294 and Standard Form 295, the contractor shall verify the
    HUBZone status of a contractor through the Small Business Administration
    prior to reporting the subcontractor as a HUBZone small business concern.
    Additionally, the guidance should reiterate that contractors can report only
    actual subcontracting awards.

            2. Develop or revise local Standard Form 294 and Standard
    Form 295 preparation instructions to include detailed guidance requiring
    DoD prime contractors to verify a contractor’s HUBZone status through the
    Small Business Administration’s List of Qualified HUBZone Small Business
    Concerns or PRO-Net. Also, the preparation instructions should include
    specific guidance directing contractors on how to submit revised or corrected
    reported subcontracting amounts.

    Defense Contract Management Agency Comments. The Defense Contract
    Management Agency concurred and will issue interim supplementary guidance.
    They stated they are not responsible for revisions to the Standard Form 294 and
    Standard Form 295 and will request that the Office of the Secretary of Defense
    change guidance on completing the Standard Form 294 and Standard Form 295.

    DoD Office of Small and Disadvantaged Business Utilization Comments. The
    DoD Office of Small and Disadvantaged Business Utilization concurred in
    principle; however, it believes the issues raised require a department-wide
    response. The DoD Office of Small and Disadvantaged Business Utilization will
    request the initiation of a Federal Acquisition Regulation case. The case will
    attempt to revise Standard Form 294 and Standard Form 295 instructions to
    indicate that forms should only report Small Business Administration-certified
    firms. The case will also attempt to revise the Federal Acquisition Regulation to
    require prime contractors to verify a subcontractor’s HUBZone status.

            3. Implement a plan for reviewing and verifying prime contractors’
    reported HUBZone subcontracting awards to ensure that all HUBZone
    reported subcontracting awards are to Small Business Administration-
    certified HUBZone contractors.

    Defense Contract Management Agency Comments. The Defense Contract
    Management Agency concurred and stated that a process will be incorporated in
    the restructuring of the Compliance Review Report to ensure that prime
    contractors are reporting only Small Business Administration-certified HUBZone
    concerns. They expect this action to be completed by December 15, 2002.




                                       10
Appendix A. Scope and Methodology
   We met with Senator Bond’s staff and agreed to limit the scope of the audit to the
   FYs 2000 and 2001 awarded contracts and associated subcontracting plans and
   reports for the 16 DoD prime contractors identified in the congressional request.

   We reviewed applicable Federal and DoD regulations implementing the
   HUBZone program. We queried the DD350 database, “Individual Contracting
   Action Report,” and contacted DCMA and the buying offices on the
   contracts reviewed.

   We reviewed 324 contracts, valued at $525 million, to determine whether they
   exceeded the FAR threshold requiring the submission of a subcontracting plan.
   Those contracts that exceeded the threshold were reviewed to determine whether
   they had an appropriate subcontracting plan or an approved waiver. We obtained
   and reviewed applicable subcontracting plans, SF 294s and SF 295s, and waivers
   associated with these contracts. We met with DCMA personnel to determine their
   role in reviewing the prime contractor’s HUBZone subcontracting policies and
   achievements. We reviewed the DCMA small business files for the
   16 contractors and observed DCMA personnel conducting a prime contractor’s
   annual small business review.

   We interviewed small business personnel from 151 DoD prime contractors to
   determine their involvement and understanding of the HUBZone program. We
   obtained information on the contractors’ processes to report small business
   subcontracting dollars.

   We contacted 21 buying offices to review additional documentation and discuss
   how they receive, review, and approve subcontracting plans to include HUBZone
   goals. We met with officials from the SBA San Francisco district office to
   discuss implementation of the HUBZone small business program.

   We performed this audit from September 2001 through October 2002 in
   accordance with generally accepted government auditing standards.
   We did not review the management control program. The audit scope was limited
   to the congressional request and the 16 contractors’ HUBZone subcontracting and
   reporting.

   Use of Computer-Processed Data. We relied on multiple sources of
   computerized and hard-copy data to determine our contract universe. To partially
   determine our contract universe, we obtained and used computer-processed data




   1
       We visited or contacted 15 of the 16 identified contractors because 2 of the contractors had
       merged to form Titan Systems Corporation, Pulse Sciences Division. We visited Titan Systems
       Corporation, Pulse Sciences Division and met with the individuals who were responsible for
       preparing the subcontracting plans and reports for the two contractors for FYs 2000 and 2001.


                                               11
from the DD350 database. Additionally DCMA obtained information from the
following databases: Electronic Document Workflow, Electronic Data Access,
Mechanization of Contract Administration Services, and Shared Data Warehouse,
using “Impromptu,” a report-authoring software tool.

We did not perform a reliability assessment of the DD350 database or the data
collected by “Impromptu,” because we determined that the contract numbers and
contractors generally agreed with the information in the computer-processed data.
When compared to the source documents, we found minor errors in the computer-
processed data that did not affect our audit results.

We reviewed contracts awarded for FYs 2000 and 2001 for the contractors
identified in the congressional request. By querying the DD350 database,
reviewing listings from DCMA San Francisco, and obtaining additional contracts
from the DCMA files, the contractors, and buying offices contacted, we
determined that DoD issued and DCMA San Francisco administered
324 FYs 2000 and 2001 contracts to the 162 contractors. We determined that
94 contracts should have included subcontracting plans and goals, as required by
the FAR. We further reviewed the 94 contracts and associated subcontracting
plans.

Defense Contractors Visited or Contacted.

           •   Aerojet, Sacramento, California

           •   Communications and Power Industries, EIMAC Division, San Carlos,
               California

           •   Communications and Power Industries, MPP Division, Palo Alto,
               California

           •   Etec Systems, Inc., San Carlos, California

           •   Filtronic Solid State, Santa Clara, California

           •   General Dynamics Corporation, Electron Devices Division, Mountain
               View, California

           •   Kaiser Electronics, San Jose, California

           •   L-3 Communications Randtron, Menlo Park, California

           •   Litton Systems Inc./Electronic Devices Division, San Carlos,
               California

           •   Northrop Grumman Corporation, Marine Systems Division,
               Sunnyvale, California

2
    We did not identify any FY 2000 and FY 2001 contracts that were awarded to Etec Systems,
    Inc.; therefore, we did not review any of its contracts and only reviewed how it had implemented
    the HUBZone program into the overall subcontracting efforts.


                                             12
                  •   Pratt & Whitney Chemical Division, San Jose, California

                  •   Signal Technology Corporation, Sunnyvale, California

                  •   SRI International, Menlo Park, California

                  •   Teledyne Electronic Technologies, Rancho Cordova, California

                  •   Titan Systems Corporation, Pulse Sciences Division, San Leandro,
                      California3


General Accounting Office High-Risk Area. The General Accounting Office has
identified several high-risk areas in the DoD. This report provides coverage of the DoD
Contract Management high-risk area.


Prior Coverage
       Unrestricted General Accounting Office reports can be accessed on the Internet at
       http://www.gao.gov.

General Accounting Office
       General Accounting Office Letter GAO-02-166R, “Small Business
       Subcontracting Report Validation Can Be Improved,” December 13, 2001

       General Accounting Office Report No. GAO-02-57, “HUBZone Program Suffers
       From Reporting and Implementation Difficulties,” October 26, 2001




       3
           The congressional request identified two contractors, Pulse Sciences, Inc. and Maxwell
           Technology Systems Division; however, they had merged to form Titan Systems Corporation,
           Pulse Sciences Division.


                                                  13
Appendix B. Subcontracting Reports
   The SF 294s and SF 295s report subcontracting award data from contractors that
   were awarded one or more contracts exceeding $500,000 and are required to
   report subcontracting awards to small business and various small business
   socioeconomic concerns, to include HUBZone small businesses. A contractor
   submits the two individual reports on a semiannual basis, for the periods ending
   March 31 and September 30.

   SF 294. The SF 294 reports on subcontracting accomplishments regarding one
   individual contract or subcontract. The SF 294 includes subcontracting goals,
   taken from an approved subcontracting plan for the contract, and actual
   subcontracts awarded from the inception of the contract through the end of the
   reporting period. Both goals and actual figures are expressed as a percent of total
   planned subcontracting and total dollars. The SF 294 requires the contractor to
   submit a copy of the report to both the contracting officer of the awarding agency
   and cognizant DCMA operations office. It cannot be determined whether a
   contractor will meet subcontracting goals for each contract until the final SF 294
   has been reported at contract completion (see figures B-1 through B-3).

   SF 295. The SF 295 covers all of a contractor’s subcontracting activity for the
   reporting period (either October 1 through March 31 or October 1 through
   September 30). The report includes subcontracting awards on any active
   contracts or subcontracts in relation to the reporting agency. A contractor must
   submit a separate SF 295 for each DoD and civilian agency that has awarded the
   contractor a contract exceeding $500,000. The SF 295 permits the contractor to
   report a proportionate amount of indirect dollars subcontracted to small
   businesses. The contractor reports the actual dollars subcontracted and the
   percentage of all subcontracted dollars for each small business category. The SF
   295 does not contain any small business subcontracting goals (see figures B-4 and
   B-5).

   Determining Subcontracting Efforts From the SF 294 and SF 295. When
   viewed separately, neither the SF 294 nor the SF 295 accurately depicts a
   contractor’s overall subcontracting program accomplishments. The SF 295 is a
   snapshot of what the contractor has done over the past 6 or 12 months, may
   include contracts with subcontracting plans negotiated before the HUBZone
   program’s implementation, and may also include contracts where a HUBZone
   subcontracting opportunity does not exist. The SF 294 reports the contractor’s
   subcontracting efforts on only one contract. If the contractor is planning to award
   subcontracts to small businesses near the completion of the contract, the initial
   SF 294s will show unmet subcontracting goals. Until the final SF 294 is
   submitted at contract completion, the extent of a contractor’s subcontracting
   efforts for the contract is undeterminable. To get a more accurate assessment of a
   contractor’s subcontracting efforts, both the contractor’s SF 294 and SF 295
   reports must be reviewed over an extended period of time.




                                       14
Figure B-1. SF 294, Page 1




                             15
Figure B-2. SF 294, Page 2




                             16
Figure B-3. SF 294, Page 3




                             17
Figure B-4. SF 295, Front




                            18
Figure B-5. SF 295, Back




                           19
Appendix C. Summary of Issues and Results
   The results of the issues raised in a congressional request regarding concern about
   the enforcement of subcontracting requirements in small business programs,
   particularly the apparent neglect of the HUBZone program by 16 specified DoD
   prime contractors, are discussed below.

   Background. The SF 295s provided to us by Senator Bond for the 16 DoD prime
   contractors reported only subcontracting awards made during the first half of
   FY 2001. In FYs 2000 and 2001, DoD awarded 94 prime contracts that exceeded
   the $500,000 requirement for the submittal of a subcontracting plan to 14 of the
   16 contractors. Two of the 16 contractors did not receive any FYs 2000 and 2001
   DoD contracts valued over $500,000.

   Issue 1. Did the contracts represented by the 16 contractors’ SF 295s include
   proper subcontracting plans when required by statute?

   Audit Results. No, not all but most of the contracts we reviewed contained
   proper subcontracting plans or waivers to the submission of a plan.

   The buying offices incorporated subcontracting plans within 73 of the 94
   contracts; however, 4 plans did not mention the HUBZone program or include
   HUBZone goals. In addition, the procurement contracting officers waived the
   subcontracting requirement for 13 contracts, because the contractors identified
   that no subcontracting opportunities existed. We identified only eight contracts
   that did not include either a subcontracting plan or a waiver to the submission of
   a plan.


                        Number of Subcontracting Plans
                            for the 94 Contracts

                   13



                   8                                           73

                No plan or waiver       Waiver        Subcontracting plan
           Note: We received three subcontracting plans that were dated
           after our contact with the buying offices. For purposes of this
           chart, these plans have been counted as no plan or waiver.




                                          20
Six buying offices identified different reasons why the eight contracts did not
include a subcontracting plan or waiver.

       •   For three contracts, the buying offices did not receive the
           subcontracting plans and were unaware that the documents were
           missing until we asked for a copy to review.

       •   For two contracts, the buying offices thought the $500,000 threshold
           was a requirement only for the base year and did not include the option
           years. The FAR requires contracting officers to include the value of
           options or similar provisions in determining whether the $500,000
           threshold is met.

       •   A buying office received and reviewed the subcontracting plan;
           however, it failed to incorporate the plan into the contract. After we
           asked for a copy of the plan to review, the buying office issued a
           modification to incorporate the plan. The plan did not mention the
           HUBZone program or include a HUBZone goal.

       •   A buying office thought the contractor that was awarded the contract
           was a small business. The FAR does not require small businesses to
           complete a subcontracting plan.

       •   For the last contract, the procurement contracting officer that awarded
           the contract was no longer at the buying office and the contracting
           personnel at the buying office could not determine why a plan was not
           submitted based on the information that was included in the
           contract file.

Issue 2a. What Federal agency is responsible for monitoring the 16 contractors’
compliance with subcontracting plans and did the Federal agency perform
such reviews?

Audit Results. DCMA is responsible for and has performed compliance reviews
for the 16 specified DoD prime contractors. DCMA conducts compliance
reviews of DoD contractors’ small business programs that includes an analysis of
the contractor’s performance on small business subcontracting goals for
individual subcontracting plans. DCMA San Francisco officials conducted small
business compliance reviews for about 55 contractors, including the 16 specified
DoD prime contractors. DCMA San Francisco officials conduct these reviews
usually on an annual basis throughout the year.

Issue 2b. Did the agency review supporting documentation or rely on
representations by the contractor for monitoring the 16 contractors’ compliance
with subcontracting?

Audit Results. They review, as applicable, written subcontracting policies and
procedures, outreach and supplier assistance, company training and recognition,
record keeping, and flow-down requirements. They also review the most recent
SF 294 and SF 295 submissions (depending on the date of the review, these can
be as old as 6 months), and the contractors’ progress in meeting their SF 294
goals and reasons for failing to meet any of the goals. DCMA San Francisco

                                    21
small business officials indicated, within the summaries of their reviews of the
contractors’ subcontracting programs, that they sampled purchase orders as
necessary and reviewed contractor-provided information. However, we identified
several cases where contractors were misreporting HUBZone subcontracting
awards. (See the Finding for a summary of these issues.)

We attended with DCMA small business officials a small business program
review of one contractor. During the review, DCMA small business officials
verbally instructed the contractor that it could only report SBA-certified
HUBZone contractors on its SF 295 and SF 294. The contractor specified that the
reported amounts included both SBA-certified and self-certified HUBZone
contractors. DCMA personnel requested a revised SF 295, with the contractor
reporting only SBA-certified HUBZone small businesses. A revised SF 295 was
provided 2 months later, after the contractor reviewed the vendor list and
recomputed the HUBZone subcontract awards for FY 2001.

Issue 3. Did the subcontracting plans submitted by the 16 contractors include
separate percentage goals and dollar values to be subcontracted to HUBZone
small business concerns?

Audit Results. Yes. Generally the subcontracting plans contained separate
percentage goals and dollar values to be subcontracted to HUBZone small
business concerns.

The contractors included a section to indicate the small business subcontracting
goals and total dollars to be subcontracted to small businesses for 69 of the
73 subcontracting plans. The contractors included positive HUBZone goals for
52 plans and a zero percent HUBZone goal for 17 plans. We identified only 4 of
the 73 subcontracting plans that did not include separate percentage goals and
dollar values to be subcontracted to HUBZone small business concerns.




                          Type of HUBZone Goals

                  17



                 4                                            52

                No mention             0 percent            Positive

        Note: We reviewed two contracts with zero percent HUBZone
        subcontracting goals; however, the contractor reported a 2 percent
        HUBZone goal. For purposes of this chart, we have considered
        these to be positive HUBZone goals.




                                           22
Issue 4a. Are the 16 contractors in compliance with their subcontracting plans?

Audit Results. No. As of January 14, 2002, only 4 of the 16 contractors had
completed a total of 7 contracts with positive HUBZone subcontracting goals.
We found no evidence that HUBZone subcontracting opportunities were achieved
on any of these contracts. We did not review whether the contractors were in
compliance with other aspects of their subcontracting plans.

Additionally, 8 other contracts were completed by January 14, 2002; however,

       •   For two contracts, the contractors did not identify HUBZone goals
           within the subcontracting plans.

       •   For four contracts, the contractors submitted zero percent HUBZone
           goals within the subcontracting plans.

       •   For two contracts, the buying offices waived the subcontracting
           requirement. However, the contractors reported SF 294s for those
           contracts, even though they did not have a subcontracting plan
           approved. One contractor reported a zero percent goal and the other
           reported a 32 percent goal. Neither contractor awarded any
           subcontracts to HUBZone small businesses.

In addition, 45 contracts with positive HUBZone subcontracting goals remained
open and the contractors could still achieve these goals. Until the contractors
complete their subcontracting efforts with the contracts, it cannot be determined
whether the contractors will meet their planned HUBZone goals.

Issue 4b. If the contractors are in compliance with their subcontracting plans,
why did contracting agencies accept small or zero HUBZone goals?

Audit Results. Procurement contracting officers accepted small or zero
HUBZone goals when the contractors justified that there were limited or no
subcontracting opportunities for HUBZone small businesses.

The contractors provided the following reasons for providing limited or no
subcontracting opportunities to HUBZone small businesses:

       •   there were a limited number of SBA-certified HUBZone
           small businesses,

       •   HUBZone small businesses could not perform the work or level of
           effort required by the prime contractor, and

       •   it was less cost effective to the Government.




                                    23
Issue 4c. Is the noncompliance with subcontracting plans recorded to aid
contracting officers in assessing likely compliance with future subcontracting
plans?

Audit Results. Yes. The Assistant Director for Small Business at DCMA San
Francisco maintains a past performance analysis of completed contracts for each
of the 16 contractors. Procurement contracting officers are privy to the past
performance data; however, according to DCMA officials, only a few
procurement contracting officers have requested the information.




                                    24
Appendix D. Subcontracting Issues
   During our review of the DoD prime contractors subcontracting with HUBZone
   small businesses, we noted the following management practices regarding the
   incorporation of subcontracting clauses and the submission, approval, and
   administration of subcontracting plans, goals, and waivers by several buying
   offices. The buying offices did not always adhere to best management practices
   in these efforts; however, these situations did not occur in sufficient instances to
   determine whether a trend existed or to support a recommendation for corrective
   action. For a listing of the 21 buying offices reviewed, see the list of sites at the
   end of this appendix.

   Subcontracting Clauses

          •   Three buying offices incorporated the contracting clauses requiring the
              submission of a subcontracting plan in the solicitation and did not list
              the clauses in the contract. Usually the administrative contracting
              officers and DCMA small business specialists only receive the
              contract and would not know that the contract required a
              subcontracting plan unless the clauses were included in the contract.
              (Sites 4, 5, and 8)

          •   Seventeen contracts at 2 buying offices used an outdated Air Force
              Material Command Supplement FAR clause to incorporate the
              subcontracting plan into the contract. Air Force Material Command
              Supplement FAR clause 5352.219-9000, “Incorporation of
              Subcontracting Plan,” (July 1997) did not reference the following
              small business concern goals: HUBZone, Veteran-Owned, and
              Service-Disabled Veteran-Owned. On 4 of 17 contracts, the
              contracting officer added the HUBZone goal to the clause in the
              contract; however, on 13 of the contracts the contracting officers did
              not specify the HUBZone goal. (Sites 14 and 18)

   Subcontracting Plans and/or Goals
          •   Contracts at three buying offices did not identify subcontracting plans
              and goals within the contracts themselves. The contracts contained
              only the applicable FAR clause requiring the submission of a
              subcontracting plan. To simplify the process of administering the
              subcontracting plans, it would be prudent to incorporate either the plan
              or at least the goals into the contract. (Sites 4, 14, and 19)

          •   Contracting officers at two buying offices requested three
              subcontracting plans after they had issued the contracts, and after the
              audit team contacted them concerning the contracts. (Sites 8 and 12)

          •   One buying office waived the subcontracting plan requirement even
              though the subcontractor had submitted a subcontracting plan.
              (Site 13)



                                         25
•   At eight buying offices, the small business specialist did not review
    the subcontracting plan. Although not required by the FAR, we
    believe that it is good management practice for procurement
    contracting officers to request that small business specialists review a
    subcontracting plan.

       -   One buying office did not have a small business specialist at
           the time when the contractor submitted the subcontracting plan.
           The buying office now has a small business specialist. (Site 7)

       -   At one buying office, the contracting officer did not forward
           two subcontracting plans for review since the plan included
           goals that met the buying office’s small business requirements.
           (Site 8)

       -   One buying office did not forward one subcontracting plan and
           the small business specialist did not review one plan received.
           (Site 19)

       -   Two buying offices overlooked submitting the plans for review
           to the small business specialist. (Sites 2 and 17)

       -   Two buying offices waived the requirements to meet mandated
           goals. One buying office did not provide the plan to the small
           business specialist since it waived the requirements to meet
           these goals. Another buying office provided the waiver to the
           goals and the subcontracting plan to the small business
           specialist; however, the small business specialist did not
           review the plan or the waiver since the contracting officer
           waived the goals. (Sites 10 and 14)

       -   Another buying office could not provide any documentation
           showing that the small business specialist had reviewed the
           plan. (Site 18)

•   Six subcontracting plans at one buying office did not include a
    HUBZone goal. Two of the plans identified the HUBZone program
    and the actions the contractor was taking to try to establish a historical
    base in which to develop future goals. The other four plans did not
    mention the HUBZone program, but the contracting officer did discuss
    with the contractors the reasons why they did not include a HUBZone
    goal within their subcontracting plan. One contractor submitted three
    of these plans. Contracting officers should not permit a contractor to
    repeatedly submit subcontracting plans with no mention of the
    HUBZone goal or program. (Site 18)

•   One buying office mistakenly identified a contractor as a small
    business and thus did not require it to submit a subcontracting plan.
    The FAR exempts small businesses from submitting subcontracting
    plans. (Site 16)



                              26
     •    One buying office on two contracts was confused about when to
          include the subcontracting clauses and request a subcontracting plan.
          Contracting officers at the buying office believed the $500,000
          threshold was for the basic contract award amount and not for the
          entire contract award. The FAR requires contracting officers to
          include the value of options or similar provisions in determining
          whether the $500,000 threshold is met. (Site 19)

     •    One buying office received and approved the subcontracting plan prior
          to contract award in June 2000, but did not incorporate the plan into
          the contract until after we contacted them in May 2002 concerning the
          contract. (Site 9)

     •    One contract had multiple plans that contained unrealistic HUBZone
          goals. The contractor was including these goals because they were
          Government-recommended goals. The contractor did not anticipate
          meeting these mandated HUBZone goals. (Site 18)

Waivers

     •    Contracting officers at two buying offices were not providing the
          small business office a copy of the waiver if they implemented one.
          Generally, it was normal procedure for small business specialists not
          to review waivers. However, we believe that small business
          specialists with their expertise should review waivers to ensure that the
          contractor or contracting officer rationale for not subcontracting is
          valid. (Sites 10 and 18)

     •    A contracting officer at one buying office did not receive a
          subcontracting plan and therefore issued a waiver for the submission
          of the subcontracting plan. The contractor subsequently developed a
          subcontracting plan and is reporting a SF 294 to DCMA, even though
          the buying office issued the waiver and had not approved the
          subcontracting plan. (Site 10)

     •    We identified instances in which the contracting officer did not
          provide the subcontracting plan or waiver to the cognizant contract
          administration office, DCMA. The FAR requires that a contracting
          officer provide the cognizant contract administration office a copy of
          each plan or the determination that there is no requirement for a
          subcontracting plan (waiver). For example, DCMA San Francisco
          provided a buying office DD Form 1716, “Contract Data Package
          Recommendation/Deficiency Report,” requesting a copy of the
          subcontracting plan since the contract included the applicable FAR
          clauses and was over $500,000 but did not incorporate a
          subcontracting plan. Subsequently, the buying office provided a copy
          of the approved waiver to submission of the subcontracting plan.
          (Sites 14 and 18)




                                   27
Buying Offices Reviewed
Army

 1.    Aviation and Missile Command, Redstone Arsenal, Alabama
 2.    Communications-Electronics Command, Fort Monmouth, New Jersey
 3.    Space and Missile Defense Command, Huntsville, Alabama
 4.    Tank-Automotive and Armaments Command, Picatinny Arsenal, New Jersey

Navy

 5.    Fleet and Industrial Supply Center, Bremerton, Washington
 6.    Fleet and Industrial Supply Center, Norfolk Detachment Washington,
         Washington, D.C.
 7.    Marine Corps Systems Command, Quantico, Virginia
 8.    Naval Inventory Control Point, Philadelphia, Pennsylvania
 9.    Naval Sea Systems Command, Crane, Indiana
10.    Space and Naval Warfare Systems Center, San Diego, California
11.    Strategic Systems Programs, Washington, D.C.

Air Force

12.    Air Armament Center, Eglin Air Force Base, Florida
13.    Air Force Materiel Command, Air Force Research Lab, Wright Patterson
         Air Force Base, Ohio
14.    Air Force Research Lab, Rome, New York
15.    Flight Test Center, Edwards Air Force Base, California
16.    Oklahoma City Air Logistics Center, Tinker Air Force Base, Oklahoma City,
         Oklahoma
17.    Space and Missile Systems Center, Kirtland Air Force Base, New Mexico
18.    Warner Robins Air Logistics Center, Robins Air Force Base, Warner Robins,
         Georgia




                                          28
Other Defense Agencies

19.   Defense Supply Center, Columbus, Ohio
20.   Defense Supply Center, Richmond, Virginia
21.   Maryland Procurement Office, Fort Meade, Maryland




                                       29
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement
  Director, DoD Office of Small and Disadvantaged Business Utilization
  Director, Acquisition Initiatives
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
   Commander, Defense Contract Management Agency West
      Commander, Defense Contract Management Agency–San Francisco
Director, Defense Logistics Agency
Director, National Security Agency

Non-Defense Federal Organizations and Individuals
Office of Federal Procurement Policy
General Accounting Office
Small Business Administration




                                          30
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Committee on Small Business and Entrepreneurship
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Committee on Small Business
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

Honorable Christopher S. Bond, U.S. Senate




                                          31
DoD Office of Small and Disadvantaged
Business Utilization Comments




                      33
Defense Contract Management Agency
Comments




                    34
35
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Garold E. Stephenson
Robert K. West
Joseph P. Doyle
Deborah L. Culp
Michael E. Baker
LaNita C. Matthews
Kelly D. Garland
Joseph M. Kaseler
Stacie A. Rimmer
Jeffrey L. Steinbauer
